                                                                         EMPLOYMENT AND TRAINING

U.S. Department of Labor                                                 ADMINISTRATION


                           Office of Inspector General—Office of Audit




                                                                         RECOVERY ACT: REQUIRED EMPLOYMENT AND
                                                                         CASE MANAGEMENT SERVICES UNDER THE
                                                                         TRADE AND GLOBALIZATION ADJUSTMENT
                                                                         ASSISTANCE ACT OF 2009




                                                                           This audit was performed by WithumSmith+Brown PC, CPAs, under
                                                                           contract to the Office of Inspector General, and by acceptance, it becomes
                                                                           a report of the Office of Inspector General.



                                                                                               ____________________________
                                                                                              Assistant Inspector General for Audit


                                                                                                          Date Issued:              August 6, 2013
                                                                                                       Report Number:             18-13-003-03-330
U.S. Department of Labor                                   August 2013
Office of Inspector General
Office of Audit                                            RECOVERY ACT AUDIT: REQUIRED
                                                           EMPLOYMENT AND CASE MANAGEMENT
                                                           SERVICES UNDER TGAAA
BRIEFLY…
Highlights of report number: 18-13-003-03-330, issued      WHAT OIG FOUND
to the Acting Assistant Secretary for Employment and
Training.                                                  The OIG found that states provided some of the
                                                           services required by TGAAA, but states could not
WHY READ THE REPORT                                        demonstrate that all eligible workers were offered or
                                                           provided all eight case management services required
The Trade Globalization Adjustment Assistance Act          under the TGAAA. Although ETA issued guidance that
(TGAAA) was enacted as part of the American                states must document the offering of these services, not
Recovery and Reinvestment Act (Recovery Act).              all of the states in our sample had effectively
TGAAA increased funding and reauthorized the Trade         implemented that guidance.
Adjustment Assistance (TAA) program. TGAAA
required states make available eight specific              Additionally, we found that ETA was not able to
employment and case management services to                 demonstrate that additional funding for employment and
participants eligible under the program. The audit         case management services resulted in increased job
covered the period from the inception of the Recovery      placement and retention for participants. ETA did not
Act through the end of audit fieldwork in May 2012. The    have accurate and complete data available to
scope of the audit was based on data submitted by the      determine whether a participant received employment
states as of September 30, 2011, and recorded in the       and case management services in either the TAPR or
Trade Activity Participant Report (TAPR), which            from documentation maintained at the state level.
included 114,711 participants certified under 4,516        Certain data reported in the TAPR was inaccurate or
petitions. We statistically selected a sample of eight     not supported, therefore, not reliable. This was caused,
states and 255 participants for detailed testing to        in part, because neither the states nor ETA had fully
answer our audit objectives.                               implemented TAPR data integrity and validation efforts.

WHY OIG CONDUCTED THE AUDIT                                Based on our independent gathering of participant
                                                           information available at the state level, when the audit
OIG conducted the audit to answer the following            testing results are projected to the entire universe of
questions:                                                 participants, we estimated that as of September 30,
                                                           2011, approximately 7,112 participants had become
1.	 Did states offer eligible workers employment and       employed, and approximately 2,524 are estimated to
    case management services as required by TGAAA?         have obtained training–related employment as a result
                                                           of receiving case management and employment
2.	 Was ETA able to demonstrate the additional             services.
    funding for employment and case management
    services resulted in job placement and retention for   WHAT OIG RECOMMENDED
    participants?
                                                           We recommended the Acting Assistant Secretary for
3.	 To what extent have eligible workers received          Employment and Training improve procedures,
    services or training and been placed in training-      guidance, data validations, and transparency related to
    related jobs that resulted in continued employment?    the TGAAA program.

                                                           The Acting Assistant Secretary agreed with the
READ THE FULL REPORT                                       recommendations and described planned actions and
                                                           actions already in process to implement the
To view the report, including the scope, methodology,      recommendations.
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2013/18-13­
003-03-330.pdf
                                    Prepared by WithumSmith+Brown PC
            For the U.S. Department of Labor – Office of Inspector General




 PAGE INTENTIONALLY LEFT BLANK





TGAAA Employment and Case Management ServicesReport No. 18-13-003-03-330
                                                                    Prepared by WithumSmith+Brown PC
                                            For the U.S. Department of Labor – Office of Inspector General


Table of Contents

Independent Auditors’ Report...................................................................................... 1


Results in Brief.............................................................................................................. 2


Objective 1-           Did states offer eligible workers employment and case 

                       management services as required by TGAAA? ................................ 4

         Participants may not have received all the services they were entitled to 

            under the law to increase their opportunities for employment. ........................ 4


         States Could Not Demonstrate They Offered Workers All Employment and 

         Case Management Services as Required by the TGAAA. .................................. 4


Objective 2 -          Was ETA able to demonstrate the additional funding for

                       employment and case management services resulted in job

                       placement and retention for participants?......................................... 6

         Incomplete and unreliable TAPR reporting impairs ETA’s ability to

            demonstrate the impact of the additional employment and case

            management services on the program. ........................................................... 6


         Trade Act Data Reported by States Was Not Reliable. ....................................... 6


Objective 3 - To what extent have eligible workers received services or training

               and been placed in training-related jobs that resulted in continued 

               employment? ...................................................................................... 10

         An estimated 7,112 participants became employed as a result of receiving 

            services and 2,524 participants obtained training-related employment

            as of September 30, 2011. ............................................................................ 10


Recommendations ..................................................................................................... 11


Exhibits
         Exhibit 1 Eight Sampled States .......................................................................... 15

         Exhibit 2 Employment and Case Management Services Required by

                   TGAAA ................................................................................................. 17


Appendices
     Appendix A Background ..................................................................................... 21

     Appendix B Objective, Scope, Methodology, and Criteria .................................. 23

     Appendix C Acronyms ........................................................................................ 25

     Appendix D Glossary.......................................................................................... 27

     Appendix E ETA Response to Draft Report........................................................ 29

                                                              TGAAA Employment and Case Management Services
                                                                                  Report No. 18-13-003-03-330
                            Prepared by WithumSmith+Brown PC
    For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                 TGAAA Employment and Case Management Services
                                     Report No. 18-13-003-03-330
                                                                                                                         Prepared by WithumSmith+Brown PC
                                                                                                 For the U.S. Department of Labor – Office of Inspector General


WithumSmith+Brown



8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910 USA
301.585.7990 . fax 301.585.7975                                                                           Independent Auditors’ Report
www.withum.com
Additional Offices in New Jersey
New York and Pennsylvania                                                August 6, 2013



                                                                         Eric Seleznow
                                                                         Acting Assistant Secretary
                                                                          for Employment and Training
                                                                         U.S. Department of Labor
                                                                         200 Constitution Avenue, N.W.
                                                                         Washington, D.C. 20210

                                                                         The American Recovery and Reinvestment Act (Recovery Act)
                                                                         was signed into law by President Obama on February 17, 2009.
                                                                         Division B, title I, subtitle I of the Recovery Act known as the
                                                                         Trade and Globalization Adjustment Assistance Act of 2009
                                                                         (TGAAA) amended the Trade Act of 1974 and reauthorized
                                                                         Trade Adjustment Assistance (TAA). The TGAAA (2009 TAA
                                                                         program) required states to make available eight specific
                                                                         employment and case management services to eligible workers
                                                                         who lost jobs due to imports, outsourcing, or other trade policies.
                                                                         The TGAAA amended the previous TAA program which had
                                                                         been operating under the 2002 amendments to the Trade Act of
                                                                         1974 (2002 TAA program). States continued to serve
                                                                         participants under the 2002 TAA program rules if their petitions
                                                                         were filed prior to enactment of the TGAAA.

                                                                         In June 2009, the Department of Labor’s (DOL) Employment
                                                                         and Training Administration (ETA) distributed additional TAA
                                                                         funds of more than $455 million composed of $381 million for
                                                                         supplemental training, $57 million for supplemental
                                                                         administrative costs, and $17 million to provide employment
                                                                         and case management services. Under TGAAA each state
                                                                         was provided over $1 million in funding over three years to
                                                                         support implementation of these additional services.

                                                                         WithumSmith+Brown (WS+B), under contract with the DOL
                                                                         Office of Inspector General (OIG), audited the use of funds
                                                                         provided for employment and case management services under
                                                                         TGAAA for the period from the inception of Recovery Act
                                                                         through the end of fieldwork.
                                                                                                          1   TGAAA Employment and Case Management Services
                                                                                                                                  Report No. 18-13-003-03-330
    A member of HLB International. A world-wide organization of accounting firms and business advisers.
                                                        Prepared by WithumSmith+Brown PC
                                For the U.S. Department of Labor – Office of Inspector General

Our overall audit objective was to assess the impact of the TGAAA employment and
case management services by determining the following.

          1. Did states offer eligible workers employment and case management
             services as required by TGAAA?
          2. Was ETA able to demonstrate the additional funding for employment and
             case management services resulted in job placement and retention for
             participants?
          3. To what extent have eligible workers received services or training and
             been placed in training-related jobs that resulted in continued
             employment?

To conduct the audit, we interviewed officials in ETA, eight Cooperating State Agencies
(CSAs), and Local Workforce Investment Boards (LWIB) in eight states (see Exhibit 1)
that administered and awarded TGAAA funds to participants. We statistically selected
255 of the 114,711 participants served by TGAAA from the inception date of Recovery
Act through May 2012 and performed verification procedures on 44 Trade Activity
Participant Report (TAPR) fields to the source documentation in participant files.

We conducted this performance audit in accordance with generally accepted
government auditing standards which require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Our objectives, scope, methodology, and criteria are more fully detailed in
Appendix B.

RESULTS IN BRIEF
Results in Brief
While states provided services required by TGAAA, they could not demonstrate that all
eligible workers were offered or provided all eight case management services. Based on
our testing of 255 participants in eight states, we found that all of the participants were
eligible for the TGAAA program, but 78 (31 percent) of the participant files reviewed did
not contain adequate documentation to support that all employment and case
management services were offered. Although ETA had issued guidance that states
must document the offering of these services, the states in our sample had not all
effectively implemented that guidance. By not offering all eight employment and case
management services, participants may not have received all the benefits they were
entitled to under the law to increase their opportunities for employment.

We found certain data reported in the TAPR was inaccurate or not supported, and
therefore not reliable. We tested a statistical sample of 255 participant files and found
significant errors for 9 key fields we tested. Since ETA’s data integrity efforts had not yet
been fully implemented at the time of our fieldwork, these errors had not been detected
and corrected. Data frequently did not exist to enable us to determine if those
participants that completed training had been placed in training-related jobs that

                                        2    TGAAA Employment and Case Management Services
                                                                 Report No. 18-13-003-03-330
                                                      Prepared by WithumSmith+Brown PC
                              For the U.S. Department of Labor – Office of Inspector General

resulted in continued employment. Lack of reliable and complete data inhibited ETA’s
ability to provide meaningful results.

ETA was not able to demonstrate that additional funding for employment and case
management services resulted in job placement and job retention for participants based
on the data in the TAPR. Although the TAPR did capture some employment and case
management services, the TAPR was not designed to capture all the employment and
case management services a participant receives. Therefore, ETA did not have
complete data available to determine whether a participant was offered or provided all
the additional services. In its FY 2011 Annual Performance Report, ETA stated that
“positive outcomes suggest the availability of employment and case management
services led to effective service strategies.” ETA based this statement on its comparison
of FY 2011 grantee reported employment and retention outcomes for participants
served under the 2009 TAA program to outcomes achieved in FY 2011 by participants
served under the 2002 TAA program. However, ETA’s statement cannot be adequately
supported.

Additionally, we gathered information from the participant files for the 255 sampled
participants. Although we could not ascertain the completeness of the files, based on
the documentation that was available, we determined that 33 (13 percent) of the 255
sampled participants had completed the training and 16 (6 percent) of the 255 were
employed as a result of receiving program services. Of the 33 that completed training, 6
(18 percent) obtained training-related employment. When projected to the entire
universe, we are 95 percent confident that 7,112 participants of the 114,711 participants
became employed as a result of receiving services and 2,524 obtained training-related
employment as of September 30, 2011. These numbers may increase as participants
complete training and additional activities under the program.

We recommended the Acting Assistant Secretary for Employment and Training improve
procedures, guidance, data validations and transparency related to the TGAAA
program.

The Acting Assistant Secretary for Employment and Training agreed with the
recommendations and described steps that will be taken or are already in process to
implement the recommendations. The Acting Assistant Secretary’s entire response is
included in Appendix E.




                                       3   TGAAA Employment and Case Management Services
                                                               Report No. 18-13-003-03-330
                                                                Prepared by WithumSmith+Brown PC
                                        For the U.S. Department of Labor – Office of Inspector General

RESULTS AND FINDINGS

Objective 1-        Did states offer eligible workers employment and case
                    management services as required by TGAAA?

                   Participants may not have received all the services they
                   were entitled to under the law to increase their
                   opportunities for employment.

Finding 1-        States Could Not Demonstrate They Offered Workers All
                  Employment and Case Management Services as Required by the
                  TGAAA.

States provided some of the services required by TGAAA, but states could not
demonstrate that all eligible workers were offered or provided all eight case
management services. Based on our testing of 255 participants at eight states, all of the
participants were eligible for the TGAAA program.

The TGAAA required states to provide or make available eight case management
services to eligible participants. The purpose of these employment and case
management services was to provide workers the necessary information and support
for them to achieve sustainable reemployment. These services include individual
specialized assessments of skills, development of individual employment plans,
information on available training, financial aid, and support services. See Exhibit 2 for
the complete listing of required services.

It is important to distinguish between services offered (i.e. made available to the
participant) and services provided (actually received by the participant). The TGAAA
only requires ETA to make available (offer) these services. Whether a participant takes
advantage of the services is at the discretion of the participant.

To obtain TAA services and benefits, a group of workers must first file a petition with
ETA requesting certification as workers adversely affected by foreign trade. ETA then
initiates an investigation to determine whether the group of workers meets the group
eligibility requirements, and if so, an eligibility certification will be issued. After a group
certification is issued, each worker in the group must individually apply for services and
benefits through their local One Stop Career Center. 1

Training and Employment Guidance Letter (TEGL) 22-08, dated May 15, 2009, Section
G1 (page A-48) states that a Cooperating State Agency (CSA) must offer workers each
of these services and must demonstrate (emphasis added) that it has provided or


1
  One Stop Career Centers, now called American Job Centers, provide a full array of employment and training-
related services for workers, youth and businesses. These locations include mandatory Workforce Investment Act
(WIA) partners-onsite. Affiliate American Job Centers provide limited services and do not include all mandatory WIA
partners.

                                                   4    TGAAA Employment and Case Management Services
                                                                            Report No. 18-13-003-03-330
                                                                Prepared by WithumSmith+Brown PC
                                        For the U.S. Department of Labor – Office of Inspector General

offered these services either in a paper-based case file or in an electronic case
management system, which must be available for review.

In reviewing a statistical sample of 255 participant files, we found that 78 (31 percent)
participant files did not contain evidence to support that all eight case management
services were offered. The results varied significantly by state as follows:

               Table 1: Participants Not Offered All Eight Case Management Services
                                               by State
                                                      Participants Not
                                  Participants     Offered All Eight Case
                     State           Tested        Management Services    Percent
               North Carolina          35                    35            100%
               Ohio                    40                    20             50%
               Michigan                40                    12             30%
               Kansas                  20                     4             20%
               Connecticut             20                     1              5%
               Alabama                 35                     3              9%
                                                               1
               Arkansas                30                     2              7%
               Virginia                35                     1              3%
               Total                  255                    78             31%
          1
              Two participant files were missing and therefore considered errors for purposes of this
              Table since the state could not demonstrate these two participants were offered all eight
              case management services.

We also found that of these 78 participants who were not offered all eight services, four
participants completed training; two of these four were placed in employment, one of
which was training-related employment.

The techniques and methods for implementing the case management and employment
service requirements varied by state and also by local area within a state. For example,
Virginia took the lead in assisting its local areas with documenting the offering of these
services by developing a TGAAA Benefit Rights and Obligations presentation, handout
and checklist for participants to sign acknowledging the services available. Other states
left it up to the local areas to determine how to document the offering. North Carolina
officials indicated that while they only documented which services were actually
provided; they did not have a method to document which services were made available
or offered to each participant, and the North Carolina TAA Participant Folder Checklist
did not include information on services offered. As shown in Table 1, none of the North
Carolina participants in our sample received all eight services.

Although ETA issued guidance that states must document the offering of these
services, not all of the states in our sample had effectively implemented that guidance.
By not offering all eight employment and case management services, participants may
not have received all the benefits they were entitled to under the law to increase their
opportunities for employment.


                                                   5     TGAAA Employment and Case Management Services
                                                                             Report No. 18-13-003-03-330
                                                       Prepared by WithumSmith+Brown PC
                               For the U.S. Department of Labor – Office of Inspector General

Objective 2 - Was ETA able to demonstrate the additional funding for
              employment and case management services resulted in job
              placement and retention for participants?

               Incomplete and unreliable TAPR reporting impairs ETA’s
               ability to demonstrate the impact of the additional
               employment and case management services on the
               program.

Finding 2 - Trade Act Data Reported by States Was Not Reliable.

ETA was not able to demonstrate that additional funding for employment and case
management services resulted in job placement and retention for participants based on
the data in the TAPR. ETA did not have accurate and complete data available to
determine whether a participant received employment and case management services
in either the TAPR or from documentation maintained at the state level. Based on both
our participant file testing and our review of the data elements in the TAPR database,
we did not find clear evidence that the employment and case management services
resulted in job placement and retention. There were several interrelated reasons
relating to implementation of the TAPR at the Federal, state and local areas, which
contributed to the errors we noted. Since ETA’s data integrity efforts had not yet been
fully implemented at the time of our fieldwork, these errors were not detected and
corrected. The lack of reliability of TAPR reporting impairs ETA’s ability to demonstrate
the impact of the additional employment and case management services on the
program; and ETA, the Congress, and other stakeholders cannot make informed
decisions about the program.

The TGAAA contained significant new reporting requirements and mandated the
collection and reporting of TAA participant activities and outcomes, including posting to
the Department’s website and in an annual report to Congress. The TAPR was
designed to simplify and improve the integrity and timeliness of program data. Prior to
the TAPR, states were required to submit separate participation and performance
reports using different formats, designations, instructions, and submission procedures.
Participant information was submitted only in the aggregate by states, and only after
data collection was complete, therefore creating a lag time.

ETA developed detailed guidelines and a handbook on how to complete the information
required in the TAPR. Reporting of the TAPR was designed to track individuals from the
first quarter when a determination of eligibility was made through six quarters following
the quarter of exit from the program. The design of the TAPR provided information on
each participant to be reported once it became available. Initially, the TAPR included
250 edit checks that ETA implemented.

However, the TAPR was not designed to capture all of the employment and case
management services a participant received. For example, the TAPR does not capture
a participant’s diagnostic testing and assessment services received, nor does it capture

                                       6    TGAAA Employment and Case Management Services
                                                                Report No. 18-13-003-03-330
                                                             Prepared by WithumSmith+Brown PC
                                     For the U.S. Department of Labor – Office of Inspector General

when a participant receives individual career counseling or jobs search and placement
counseling. Additionally, neither ETA nor the states were required to track particular
funding streams directly to services provided at the participant level, because funds for
these services were not Recovery Act funds which required separate tracking.

ETA uses data from the TAPR to report Common Measures which include entered
employment, employment retention, and six-month average earnings, in its Annual
Performance Report, on its website, and in annual reports to Congress. ETA developed
these Common Measures in consultation with OMB following the guidance in OMB
Memorandum 02-06. Additionally, OMB Circular A-11, Part 6, Section 230.13,
Assessing the Completeness and Reliability of Performance Data (August 2011),
requires agencies to have in place verification and validation techniques that will ensure
the completeness and reliability of all performance measurement data contained in the
annual performance plans and performance reports.

ETA reported in DOL’s FY 2011 Annual Performance Report that “positive outcomes
suggest the availability of employment and case management services led to effective
service strategies.” According to ETA officials, ETA based this statement on outcomes
achieved by those served under the 2009 TAA program compared to the 2002 TAA
program and the results of over 100,000 exiter records for FY 2011. This data showed
that exiters under the 2002 TAA program had an entered employment rate of 64.9
percent, while exiters under the 2009 TAA program had an entered employment rate of
66.6 percent, a 1.7 percent increase. Additionally, ETA’s data showed retention for the
2002 TAA program participants was 89.6 percent, while retention for the 2009 TAA
program participants was 91.3 percent, a 1.7 percent increase. Since the requirement
that all participants be offered case management and employment services was the
only change in services, ETA attributed the rate increases to these services.

ETA did not have sufficient, adequate, reliable data to reach this conclusion for the
following reasons. First, the rate increases are similar to historic annual fluctuations in
employment and retention rates. 2 Second, other factors, such as the characteristics of
the population served, could impact employment and retention outcomes. For example,
the 2009 TAA program expanded coverage to service workers, a population which
could have different employability characteristics than traditional workers served under
the 2002 TAA program. Third, some of the TAPR data upon which ETA calculated these
rates, such as the number of exiters in a given period, we believe is unreliable due to
the number of sample errors we found in exit dates. See Table 2. Finally, without
knowing which, if any, employment and case management services the 2009 TAA
program exiters who entered employment actually received, it is difficult to draw
conclusions about the effectiveness of such services.

Additionally, we noted that while ETA reports outcome measures on its website, and in
its annual performance report, ETA does not currently publish the formulas used to


2
 ETA reported the following retention outcomes: FY 2007 – 88%, FY 2008 – 90%, FY 2009 – 88%, FY 2010 – 86%,
FY 2011 90%.

                                               7    TGAAA Employment and Case Management Services
                                                                        Report No. 18-13-003-03-330
                                                        Prepared by WithumSmith+Brown PC
                                For the U.S. Department of Labor – Office of Inspector General

calculate these measurements or the actual participant numbers used in the
calculations. Without this information, it is more difficult for the users of this information
to gauge the context and scope of the results of the program.

We found certain data reported in the TAPR was inaccurate or not supported, and
therefore not reliable. We gathered information from the participant files for the 255
sampled participants and tested 44 fields in the TAPR data that we judgmentally
determined to be significant as related to our audit objectives, for the quarter ended
September 30, 2011. We performed verification procedures comparing what was
reported in the TAPR to the source documentation in the participant file maintained by
the state or local agency.

We found significant information recorded in the TAPR that was either not supported by
documentation in the participant file or was entered incorrectly for 9 key fields we
tested:
             Table 2: TAPR Errors by Key Field Tested
                             Key Field                  No.      No.     Percent
                                                       Tested   Errors    Error
               Exit Date                                255      37       15%
               Date Eligibility Determined              255      30       12%
               Date of Most Recent Case Management      255      99       39%
               and Reemployment Service
               Other Reason Exit                        255       28      11%
               Occupational Skill Training Code         255       30      12%
               Occupational Code of Employment          255       65      25%
               Industry Code of Employment              255       57      22%
               Two Quarter Prior Earnings               255       64      25%
               First Quarter Prior Earnings             255       53      21%


For some of the more significant fields, the nature of these errors and their impact can
be further described as follows:

Exit Date – errors included not recording exit dates when participants should have
exited, resulting in blank fields. Additional errors included system generated exit dates
that were not valid and did not reflect a participant’s actual exit date. Errors in exit dates
have the potential to affect the reported outcomes, since entered employment and
retention are measured from the Exit Date.

Date of Most Recent Case Management and Reemployment Service – in some sample
items, this field was populated with the participation date instead of the date of the most
recent service. Errors in this field could result in errors in the Exit Date field since the
exit date is dependent on the discontinuance of services.

Occupational Skill Training Code and Occupational Code of Employment – errors
primarily consisted of blank data or invalid (e.g. 999999) data. Although errors in these
fields do not directly impact any reported outcome measures, ETA and the states would
have difficulty determining if participants obtain training-related jobs without these fields


                                          8   TGAAA Employment and Case Management Services
                                                                  Report No. 18-13-003-03-330
                                                       Prepared by WithumSmith+Brown PC
                               For the U.S. Department of Labor – Office of Inspector General

being entered correctly. Regarding the occupational code of employment, ETA indicated
there is no systematic means of verifying this data and there are no current means of
attaining this data universally.

There were several interrelated reasons related to the development and implementation
of the TAPR at the Federal, state and local levels that led to the errors we noted.
Because the TAPR was a new system, ETA made frequent changes to the TAPR
system, such as adding or modifying data definitions. States and local levels then had to
modify their TAPR submissions or change their own systems and processes to capture
and produce the necessary data. These modifications and changes reduced the
accuracy and reliability of the data. Additionally, the states and local levels did not have
procedures in place to detect these errors. For example, none of the states we visited
had implemented a formal data validation process to ensure the accuracy and
completeness of the data for the new TAPR system, as of the end of our fieldwork in
May 2012. One of the states we visited had only recently implemented a data validation
process at the time of our onsite fieldwork.

ETA indicated that their computations for reporting TAPR data ignored many of the data
elements that contain premature and other erroneous entries by the states as noted in
our audit. ETA was already aware of the need for better data quality and commenced a
detailed Data Integrity Initiative in the Spring of 2012, and developed plans for
classifying and quantifying errors and inconsistent reporting for each of the states. ETA
performed its initial review on the September 30, 2011, data and began implementing
additional changes and edit checks for subsequent submissions. ETA also implemented
80 additional edit checks beginning in April 2012. During 2012, ETA held a series of
webinars with the regions and states discussing data integrity issues identified,
submitted a state specific package to each state containing record level data that
constituted areas of concern, and required states to resubmit corrected data and
corrective action plans, for the quarter ending September 30, 2012. ETA also purchased
a business intelligence tool which will be used to further analyze data integrity issues.
ETA began its data integrity initiative with FY 2012 data, and is currently developing
guidance to ensure the continuance on an ongoing annualized basis to reinforce
accuracy, completeness, and timeliness of TAPR data.




                                        9   TGAAA Employment and Case Management Services
                                                                Report No. 18-13-003-03-330
                                                                  Prepared by WithumSmith+Brown PC
                                          For the U.S. Department of Labor – Office of Inspector General

Objective 3 - To what extent have eligible workers received services or training
              and been placed in training-related jobs that resulted in continued
              employment?

                    An estimated 7,112 participants3 became employed as a
                    result of receiving services and 2,524 participants4 obtained
                    training-related employment as of September 30, 2011.

Our analysis of the outcomes of participants was limited because we found that certain
data reported in the TAPR was inaccurate or not supported, and data frequently did not
exist to enable us to determine if those participants that completed training had been
placed in training-related jobs that resulted in continued employment. The TAPR was
not designed to capture all of the employment and case management services a
participant received. For example, the TAPR did not capture a participant’s diagnostic
testing and assessment services received, nor did it capture when a participant received
individual career counseling or jobs search and placement counseling.

Outcome Testing of Sampled Participants

During our fieldwork from March to May 2012, we independently gathered additional
information from the participant files for the 255 sampled participants, which included
participants who had not completed participation in the program at the time of our
fieldwork. We determined that 33 (13 percent) of the 255 sampled participants had
completed training. Additionally, based on the limited documentation available, we
determined that 16 (6 percent) of the 255 were employed as a result of receiving
program services. Of the 33 that completed training, 6 (18 percent) of the 255 obtained
training-related employment. These numbers may be understated because of the
limited documentation available. Furthermore, it is important to note that these numbers
may increase as participants complete training and additional activities under the
program. When these sample results are projected to the entire universe, we are 95
percent confident that about 7,112 participants became employed as a result of
receiving services and about 2,524 obtained training-related employment as of
September 30, 2011.

In order to measure employment outcomes reported in TAPR at September 30, 2011,
we identified sample participants who had exited the program prior to March 31, 2011.
The following chart summarizes the employment outcomes and training activities of the
participants in the sample as reported in the TAPR and validated during our fieldwork:




3
    Based on a 95% confidence level and sampling precision of +/- 6.9% with an upper limit of 15,026.
4
    Based on a 95% confidence level and sampling precision of +/- 1.7% with an upper limit of 4,416.

                                                     10   TGAAA Employment and Case Management Services
                                                                              Report No. 18-13-003-03-330
                                                                     Prepared by WithumSmith+Brown PC
                                             For the U.S. Department of Labor – Office of Inspector General

Chart 1: Status of Sample Participants Who Exited the Program Prior to March 31, 2011

 Participant Sample                                          255

                Exited Program Prior to March 31, 2011                                        57

                             Employed in First Quarter after Exit                                            41 *

                                             Employed in Second Quarter after Exit                                         36 *


                             Employed in First Quarter after Exit Who:
                                                                                   Participants      Percent
                              Completed Training                                             4            10%
                              Began but did not complete Training                            1             2%
                              Received waiver from training                                  9            22%
                              Did not receive waiver or take training                       27            66%
                             Total                                                          41           100%


* - These figures are different than what ETA would use to report entered employment and retention rates. For participants
employed in the First Quarter after Exit, and Second Quarter after Exit, ETA would base the rates on those that exited the program
on or before December 31, 2010 and September 30, 2010, respectively.

Note: For the participant who had entered training but had not completed training, data was not available to determine whether the
participant had dropped out of training or was still enrolled in training.


Participants were provided training through approved training providers in connection
with local One Stop Career Centers. Training for participants in our sample included
such occupations as truck drivers, medical assistants, nurses, office supervisors,
administrative support workers, general and operations managers, computer
information systems managers, architectural and engineering managers, paralegals,
HVAC mechanics, and medical records and health information technicians. In addition,
the TGAAA expanded the length of time that workers could receive Trade Readjustment
Allowance (TRA) wage subsidy benefits to 130 weeks for those who were enrolled in full
time training (up from 104 weeks) and to 156 weeks for remedial or prerequisite training
(up from 130 weeks). Workers who received a waiver from training were still eligible for
52 weeks of basic TRA.

RECOMMENDATIONS

We recommend the Acting Assistant Secretary for Employment and Training:

1.	       Develop a process to notify states to provide evidence of compliance in meeting
          future legislative requirements.

2.	       Complete the data validation program for FY 2013 TAPR data in accordance with
          OMB Circular A-11. This should include validation procedures for ETA to
          compare a sample of state reported data to source documentation, as well as

                                                         11     TGAAA Employment and Case Management Services
                                                                                    Report No. 18-13-003-03-330
                                                     Prepared by WithumSmith+Brown PC
                             For the U.S. Department of Labor – Office of Inspector General

      establish procedures to ensure states are accountable for correcting data if ETA
      identifies significant error rates.

3.	   Require states to conduct internal assessments of data integrity established by
      ETA, and comply with accountability procedures if ETA identifies significant error
      rates.

4.	   Include calculation formulas and actual participant numbers for computing
      performance measures in ETA’s published reports and on its website.




                                      12   TGAAA Employment and Case Management Services
                                                               Report No. 18-13-003-03-330
                                    Prepared by WithumSmith+Brown PC
            For the U.S. Department of Labor – Office of Inspector General




Exhibits





                    13   TGAAA Employment and Case Management Services
                                             Report No. 18-13-003-03-330
                             Prepared by WithumSmith+Brown PC
     For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





             14   TGAAA Employment and Case Management Services
                                      Report No. 18-13-003-03-330
                                                        Prepared by WithumSmith+Brown PC
                                For the U.S. Department of Labor – Office of Inspector General


                                                                                          Exhibit 1
Eight Sampled States


        Eight Sampled States
                                                 TGAAA                 Participants
               State               Funding     Participants             Sampled
        Alabama                  $ 21,549,191         2,174                       35
        Arkansas                    36,399,850        1,515                       30
        Connecticut                 13,696,817          918                       20
        Kansas                       3,996,559          722                       20
        Michigan                   127,695,863       13,586                       40
        Ohio                        51,913,700       13,265                       40
        North Carolina             115,075,224        7,147                       35
        Virginia                    26,849,073        4,889                       35
        Totals                   $ 397,176,277       44,216                      255

        Source: TAPR Data provided by ETA, Sample sizes calculated by OIG statistician.




                                         15   TGAAA Employment and Case Management Services
                                                                  Report No. 18-13-003-03-330
                             Prepared by WithumSmith+Brown PC
     For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





             16   TGAAA Employment and Case Management Services
                                      Report No. 18-13-003-03-330
                                                      Prepared by WithumSmith+Brown PC
                              For the U.S. Department of Labor – Office of Inspector General

                                                                                 Exhibit 2
Employment and Case Management Services Required by TGAAA

  1. Comprehensive and specialized assessment of skill levels and service needs,
     including diagnostic testing and in-depth interviewing to identify employment
     barriers and appropriate employment goals;

  2. Development of an individual employment plan to identify employment goals and
     objectives and appropriate training to achieve those objectives and goals;

  3. Information on training available in local and regional areas, information on
     individual counseling to determine which training is suitable training, and
     information on how to apply for such training;

  4. Information on how to apply for financial aid;

  5. Short-term prevocational services, such as interviewing skills;

  6. Individual career counseling, including job search and placement counseling
     (while receiving a trade adjustment allowance and/or training) and after receiving
     training for purposes of job placement;

  7. Employment statistics information, including accurate information relating to
     local, regional, and national labor market areas; and

  8. Information relating to the availability of supportive services.




                                       17   TGAAA Employment and Case Management Services
                                                                Report No. 18-13-003-03-330
                             Prepared by WithumSmith+Brown PC
     For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





             18   TGAAA Employment and Case Management Services
                                      Report No. 18-13-003-03-330
                                      Prepared by WithumSmith+Brown PC
              For the U.S. Department of Labor – Office of Inspector General




Appendices





                      19   TGAAA Employment and Case Management Services
                                               Report No. 18-13-003-03-330
                            Prepared by WithumSmith+Brown PC
    For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





            20   TGAAA Employment and Case Management Services
                                     Report No. 18-13-003-03-330
                                                      Prepared by WithumSmith+Brown PC
                              For the U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

Since 1974, the TAA program has provided training and benefits to eligible workers who
lost jobs due to imports, outsourcing, and other trade policies. The Recovery Act,
Division B - Tax, Unemployment, Health, State Fiscal Relief and Other Provisions, Title I
- Tax Provisions, Subtitle I – Trade Adjustment Assistance (P.L. 111-5; 123 STAT 367)
reauthorized the TAA program as the “Trade and Globalization Adjustment Assistance
Act of 2009” (19 USC 2101) and increased the cap on training funds. However, the
additional funding was appropriated under the Omnibus Appropriations Act 2009, P.L.
111-8, to ETA’s Federal Unemployment Benefits and Allowances account. Therefore,
the additional TAA funds are not considered Recovery Act funds subject to separate
tracking and reporting requirements. ETA and state and local workforce professional
staff refer to the TGAAA as the 2009 TAA program.

Prior to the TGAAA, the TAA program operated under the 2002 amendments to the
Trade Act of 1974 (2002 TAA program). Participants certified under petitions under the
2002 TAA program continued to receive benefits and services under that program after
passage of the TGAAA. Therefore, states operated multiple TAA programs
concurrently. The TAA program offers a variety of benefits and services to eligible
workers, including job training, income support, job search and relocation allowances,
assistance with health insurance premiums, and certain wage supplements. The 2009
TAA program changed several of these benefits. Additionally, TGAAA mandated the
states offer eight specific employment and case management services to eligible
workers. Because states previously received no TAA program funds for case
management, if they provided these services, they had to cover costs out of
administrative funds or other sources such as Workforce Investment Act (WIA) formula
funds.

In June 2009, ETA distributed to the states TAA funds of more than $455,587,500
comprised of $381,250,000 for supplemental training, $57,187,500 for supplemental
administrative costs, and $17,150,000 to provide employment and case management
services. 5 Under TGAAA each state was provided funding totaling $1,050,000 over
three years ($350,000 in FY2009, FY 2010 and FY 2011) to support implementation of
these additional services.

The TAPR system was implemented by ETA in FY 2010 to streamline the TAA program
activities reporting structure and to provide data as mandated by TGAAA. The TAPR is
designed to track TGAAA activities on a real time basis for individuals from the point of
TAA eligibility determination through post-participation outcomes. The CSAs are
required to submit the TAPR on a quarterly basis to ETA. The TAPR contains 137 data
elements for each participant.


5
    TEGL 04-08 Ch.1

                                       21   TGAAA Employment and Case Management Services
                                                                Report No. 18-13-003-03-330
                                                           Prepared by WithumSmith+Brown PC
                                   For the U.S. Department of Labor – Office of Inspector General



During the period covered by TGAAA, ETA certified 4,516 Petitions for Trade
Adjustment Assistance, which covered 450,823 workers as estimated by the employers.
Of these workers, 114,711 (25 percent) had applied for and received benefits under the
program for the period October 1, 2009 through September 30, 2011 (FY 2010 and FY
2011). 6 However, it is important to note that this percentage may understate the actual
participation rate, since not all 450,823 workers may have actually been laid off during
the time period of our audit, as the petitions are valid for 2 years following the petition
determination date.




6
    Source: TAPR Data, provided by ETA

                                           22   TGAAA Employment and Case Management Services
                                                                    Report No. 18-13-003-03-330
                                                      Prepared by WithumSmith+Brown PC
                              For the U.S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology, and Criteria

Objectives

Our overall audit objective was to assess the impact of the TGAAA employment and
case management services by determining the following.

   1. Did states offer eligible workers employment and case management services as
      required by TGAAA?

   2. Was ETA able to demonstrate that additional funding for employment and case
      management services resulted in job placement and retention for participants?

   3. To what extent have eligible workers received services or training and been
      placed in training-related jobs that resulted in continued employment?

Scope

The scope of the audit covers TGAAA participants reported on the September 30, 2011
TAPR reports submitted by the states. A total of 114,711 TGAAA participants were
included on this report. A TGAAA participant is a worker who is eligible for TAA benefits
who is covered under a petition certified under the TGAAA, with a petition number
between 70,000 through 79,999.

Our audit work was performed in 8 statistically selected states, which included a sample
of 255 participants. The period covered the inception of the Recovery Act through our
fieldwork end in May 2012.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusion based on our audit
objectives.

Methodology

To answer our audit objectives, we performed data analysis on the TAPR data for the
quarter ending September 30, 2011, for the entire universe of TGAAA participants. We
queried the data to obtain information relevant to our audit objectives. A participant in
the TAA program is an individual who worked or works for a company that ETA has
certified (approved) its Petition for Trade Adjustment Assistance, and the state has
determined the individual is eligible for the program. Participants are considered TGAAA



                                       23   TGAAA Employment and Case Management Services
                                                                Report No. 18-13-003-03-330
                                                             Prepared by WithumSmith+Brown PC
                                     For the U.S. Department of Labor – Office of Inspector General


participants if they are covered under petitions approved after passage of TGAAA, and
prior to the expiration of the TGAAA provisions on October 21, 2011. 7

We performed an audit of the TGAAA implementation in eight states statistically
selected for testing which included testing a statistical sample of 255 participants. The
fieldwork we performed, during March 2012 through May 2012, included testing 44
fields in the TAPR data we judgmentally determined to be significant as related to our
audit objectives for the quarter ended September 30, 2011. We performed verification
procedures comparing what was reported in the TAPR to the source documentation in
the participant file maintained by the state or local agency.

Internal Control
In planning and performing our audit, we obtained an understanding of ETA’s internal
controls considered significant to the audit objectives, including obtaining an
understanding of the guidance issued to the states. The testing of ETA’s controls was
not determined to be significant to our audit objectives. At the state level, for the eight
sampled states, we considered each states’ internal controls relevant to our audit
objectives by obtaining an understanding of those controls and assessing risk for the
purpose of achieving our objectives. The objective of our audit was not to provide
assurance on the internal control, therefore, we did not express an opinion on ETA’s or
the states’ internal controls. Our consideration of internal control at the states of their
processes for offering and documenting the eight employment and case management
services, and their processes for recording and reporting certain information in the
TAPR, would not necessarily disclose all matters that might be significant deficiencies.
Because of the inherent limitation on internal control, misstatements or noncompliance
may occur and not be detected.


Criteria

We used the following criteria to accomplish our audit:

     •	 The American Recovery and Reinvestment Act (Recovery Act ) of 2009 

        (P.L.111-5)

     •	 Trade Act of 1974, as amended in 2002 and 2009
     •	 Trade and Globalization Adjustment Assistance Act of 2009 (TGAAA)
     •	 Training and Employment Guidance Letters No. 22-08 and 22-08 Change 1
     •	 Training and Employment Guidance Letters 9-09 and 9-09 Change 1
     •	 Training and Employment Guidance Letter No. 16-10
     •	 Training and Employment Guidance Letter No. 6-09



7
    Petitions in this range are numbered TA-W-70,000 to 79,999.

                                               24   TGAAA Employment and Case Management Services
                                                                        Report No. 18-13-003-03-330
                                                   Prepared by WithumSmith+Brown PC
                           For the U.S. Department of Labor – Office of Inspector General



                                                                           Appendix C
Acronyms

CSA              Cooperating State Agency

ETA              Employment and Training Administration

FY               Fiscal Year

LWIB             Local Workforce Investment Board

OIG              Office of Inspector General

OMB              Office of Management and Budget

P.L.             Public Law

Recovery Act     American Recovery and Reinvestment Act of 2009

TAA              Trade Adjustment Assistance program

TAPR             Trade Activity Participant Report

TEGL             Training and Employment Guidance Letter

TGAAA            Trade and Globalization Adjustment Assistance Act of 2009

TRA              Trade Readjustment Allowance

WIA              Workforce Investment Act

WS+B             WithumSmith+Brown

2002 TAA Program The TAA Program as amended by the TAA Reform Act of 2002

2009 TAA Program The TAA Program as amended by the TGAAA




                                   25   TGAAA Employment and Case Management Services
                                                            Report No. 18-13-003-03-330
                             Prepared by WithumSmith+Brown PC
     For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





             26   TGAAA Employment and Case Management Services
                                      Report No. 18-13-003-03-330
                                                      Prepared by WithumSmith+Brown PC
                              For the U.S. Department of Labor – Office of Inspector General



                                                                              Appendix D
Glossary

Glossary of Terms Related to TAPR Data

Exit Date – Date on which the last service funded by the program or a partner program
is received by the participant. Once a participant has not received any services funded
by the program or a partner program for 90 consecutive calendar days and has no gap
in service and is not scheduled for future services, the data of exit is applied
retroactively to the last day on which the individual received a service funded by the
program or a partner program.

Date Eligibility Determined – Date upon which the applicant was determined to be (or
not) part of a TAA certified worker group.

Date of Most Recent Case Management and Reemployment Service – Date on
which the participant received his or her most recent Case Management and
Reemployment Service.

Other Reason Exit – used to record specific codes for when a participant leaves the
program for other than entry into unsubsidized employment

Occupational Skill Training Code – the 8 digit O*Net code that best describes the
training occupation for which the participant received training services.

Occupational Code of Employment – the 8-digit occupational code that best
describes the individual’s employment using the O*Net classification system

Industry Code of Employment – The 4 to 6-digit industry code that best describes the
individual’s employment using the North American Industrial Classification System
(NAICS)

Two Quarter Prior Earnings – Total earnings from wage records for the second
quarter prior to the quarter of participation.

First Quarter Prior Earnings – Total earnings from wage records for the first quarter
prior to the quarter of participation.




                                      27   TGAAA Employment and Case Management Services
                                                               Report No. 18-13-003-03-330
                             Prepared by WithumSmith+Brown PC
     For the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





             28   TGAAA Employment and Case Management Services
                                      Report No. 18-13-003-03-330
                                                              Prepared by WithumSmith+Brown PC
                                      For the U.S. Department of Labor – Office of Inspector General


                                                                                                           Appendix E
ETA Response to Draft Report



      U.S. Department of Labor                 Assistant Secreta;-y for
                                               Employment and Training
                                               Washington, D.C. 20210

             JUL Ol2013


         MEMORANDUM FOR:                ELLIOT P. LEWIS
                                        Assistant Inspeetor General for Audit
                                                        //   "-.--/ '
         FROM:                          GERRI FIA~tt-u:1tit£-­
                                        Acting As3istant SecretafY

         SUB.JECT:                      Response to the Office of Inspector General's Audit, Recovery Act:
                                        Required Employment and Case Management Services Under The
                                        Trade and Globalization Adjustment Assistance Act of 2009, Audit
                                        Report 18-13-003-03-330

         1hc Employment and Training Administration {ETA) appreciates the oppnrtunity to respond to
         the Oftice of the Inspe'-1or General's (OIG) draft audit report on the Recol'ery Act: Requin·d
         Employment and Case Managemenl Services Under the Trade and Globalizalion Adjustment
         Assistance Act of2009 (TGAAA). We want to thank WithwnSmith+Brown (WS+B) contract
         staff for their time and effort spent revie\>ring 255 participant files, which represent a sample size
         of0.2 percent of the total 114,711 ftles collected at the time of the audit for participants served
         by TGAAA; and interviewing personnel at ETA's Office of Trade Adjustment Assistance
         (OTAA). eight Cooperating State Agencies (CSAs), and eight Local Workforce Investment
         Boards (L WlBs).

         TOAAA provided displaced workt'rs access to long-term training, and those hardest hit during
         the economic recession could enter training of up to 156 maximum weeks to improve their
         reemployment opportunit1es. Of the 120,903 Trade participants served to date who entered
         TGAAA. TGAAA provided 60,268 participants with training and 68 percent or 39.403
         participants who exited the program entered employment.

         The Dcpa:-tmenr anticipated that there would be some challenges during dw transition to
         TGAAA. After TGAAA was enacted, ETA took early, proactive steps for a sttccessful
         implementation by issuing new Trade Adjustment Assistance guidance and following up with
         National Office staff providing necessary technical assistance to CSAs in six regional meetings.
         ETA also updated the Trade Act Participant Report (TAPR) handbook as the new program \'.'aS
         implemented. Since then, the Department has engaged in regional and state training efforts to
         create a consistent means for data sharing and accurate data reporting. Additionally, TGAAA
         required CSAs to implement control measures to effectively oversee the operation and
         administration of the TAA program and to improve the timeliness of reported data and verify the
         accuracy of such data (TEGL 22-08, Section 1.2) which continue under the current 20 I l TAAEA
          program.

          Below are the Dt•partment's responses to address each recommendation provided in this rcporL
          The Depnrtment continuo;:s to update its state monitoring procedures to address case




                                                   29      TGAAA Employment and Case Management Services
                                                                               Report No. 18-13-003-03-330
                                                     Prepared by WithumSmith+Brown PC
                             For the U.S. Department of Labor – Office of Inspector General




 management, data integrity and reporting validation, and will continue to work with its regional
 and state workforce partners to ensure that proper case management is administered to those
 displaced trade impacted workers.

 Recommendation 1: Develop a process to notify states to provide evidence of compliance in
 meeting fitture legislative requirements.

 ETA Response to Recommendation 1: ETA concurs with this recommendation. In fact,
 OTAA began to work on producing a Trade Supplement to ETA's Core Monitoring .Guide in
 2012 which establishes monitoring protocols for reviewing state and iocal area compliance with
 statutory requirements. The guide provides instructions for ETA regional staff review ofTAA
 participant files submitted by CSAs and will ensure comprehensive documentation of all eight
 required case management services by state and local areas. Additionally, the guide requires
 ETA regional staff to monitor state activities to certify that LWIAs are in compliance with
 statutory requirements. The resulting CSA monitoring reports will provide additional evidence
 of compliance.

 Recommendation 2: Complete the data validation program for FY 2013 TAPR data in
 accordance with OMB Circular A-11. This should include validation procedures for ETA to
 compare a sample of state reponed data to source documentation, as well as establish procedures
 to ensure states are accountable for correcting data ifETA identifies significant error rates.

 ETA Response to 'Recommendation 2: ETA concurs with this recommendation. This smnmer,
 OTAA will recommence Data Element Validation for the FY 2013 TAPR data, and CSA reports
 will have a submission deadline of February l, 2014. ETA will direct CSAs to pull a random
 sample of files for the purpose of validating reported data against documentation provided in
 TAA participant case management files. OTAA will establish procedures to ensure CSAs are
 accountable for correcting data if significant error rates are identified.

 Recommendation 3: Require states to conduct internal assessnwnts of data integrity established
 by ~:-;rA, and comply with accountability procedures ifETA identifies significant error rates.

 ETA Response to Recommendation 3: ETA concurs with the recommendation. OTAA wi II
 instruct CSAs to conduct anmtal internal assessments of data integrity established by ETA in a
 forthcoming TEGL. The TEGL will formalize benchmarks for reporting, and will req~1ire CSAs
 to comply with accountahility procedures outlined in the TEGL, should significant error rates be
 identified.

 Rer,ommendation 4: Include calculation fonnulas and actual participant numbers for
 computing performance measures in ETA's published reports and on its website.

· ETA Response to Recommendation 4: ETA concurs with this recommendation to improve
  transparency of TAA data. OTAA is in the final stages of fonnalizing calculations for taking
  raw data reported by states and producing aggregate numbers, including participant counts and
  per1ormance outcomes. The calculation formulas and actual participant numbers for computing
  performance measures will be included in ETA's published reports and linked to its website.




                                         30    TGAAA Employment and Case Management Services
                                                                   Report No. 18-13-003-03-330
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
